<html>
<title> - CURRENT AND PROJECTED NATIONAL SECURITY THREATS TO THE UNITED STATES</title>
<body><pre>[Senate Hearing 114-623]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 114-623

  CURRENT AND PROJECTED NATIONAL SECURITY THREATS TO THE UNITED STATES

=======================================================================

                                HEARING

                               BEFORE THE

                    SELECT COMMITTEE ON INTELLIGENCE

                                 OF THE

                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                       TUESDAY, FEBRUARY 9, 2016

                               __________

      Printed for the use of the Select Committee on Intelligence
      
      
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]      
      
      
               Available via the World Wide Web: http://www.fdsys.gov
               
               
                               __________
                               
	                                       
	            U.S. GOVERNMENT PUBLISHING OFFICE                    
20-544 PDF                  WASHINGTON : 2017                     
	                 
 ----------------------------------------------------------------------------------------
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
 http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
 U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
 E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5c3b2c331c3f292f283439302c723f333172">[email&#160;protected]</a> 
                   
                   
                   SELECT COMMITTEE ON INTELLIGENCE

           [Established by S. Res. 400, 94th Cong., 2d Sess.]

                 RICHARD BURR, North Carolina, Chairman
              DIANNE FEINSTEIN, California, Vice Chairman

JAMES E. RISCH, Idaho                RON WYDEN, Oregon
DANIEL COATS, Indiana                BARBARA A. MIKULSKI, Maryland
MARCO RUBIO, Florida                 MARK WARNER, Virginia
SUSAN COLLINS, Maine                 MARTIN HEINRICH, New Mexico
ROY BLUNT, Missouri                  ANGUS KING, Maine
JAMES LANKFORD, Oklahoma             MAZIE K. HIRONO, Hawaii
TOM COTTON, Arkansas
                 MITCH McCONNELL, Kentucky, Ex Officio
                     HARRY REID, Nevada, Ex Officio
                    JOHN McCAIN, Arizona, Ex Officio
                  JACK REED, Rhode Island, Ex Officio
                              ----------                              
                      Chris Joyner, Staff Director
                 Michael Casey, Minority Staff Director
                  Desiree Thompson Sayle, Chief Clerk
                                CONTENTS

                              ----------                              

                            FEBRUARY 9, 2016

                           OPENING STATEMENTS

Burr, Hon. Richard, Chairman, a U.S. Senator from North Carolina.     1
Feinstein, Hon. Dianne, Vice Chairman, a U.S. Senator from 
  California.....................................................     2

                                WITNESS

Clapper, James R., Director of National Intelligence, Accompanied 
  by: John Brennan, Director, Central Intelligence Agency; LtGen 
  Vincent Stewart, Director, Defense Intelligence Agency; James 
  Comey, Director, Federal Bureau of Investigation; and Adm 
  Michael Rogers, Director, National Security Agency.............     4
    Prepared statement...........................................     9

 
  CURRENT AND PROJECTED NATIONAL SECURITY THREATS TO THE UNITED STATES

                              ----------                              


                       TUESDAY, FEBRUARY 9, 2016

                                       U.S. Senate,
                          Select Committee on Intelligence,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:38 p.m. in Room 
SH-216, Hart Senate Office Building, Hon. Richard Burr 
(Chairman of the Committee) presiding.
    Committee Members Present: Senators Burr, Feinstein, Coats, 
Collins, Blunt, Lankford, Cotton, Wyden, Warner, Heinrich, 
King, and Hirono.

   OPENING STATEMENT OF HON. RICHARD BURR, CHAIRMAN, A U.S. 
                  SENATOR FROM NORTH CAROLINA

    Chairman Burr. I'd like to call the hearing to order, and 
I'd like to welcome our witnesses today: Director of National 
Intelligence James Clapper; Director of Central Intelligence 
Agency John Brennan; Director of Defense Intelligence Agency 
General Vincent Stewart; Director of the Federal Bureau of 
Investigation Jim Comey; and Director of the National Security 
Agency Admiral Rogers. To each of you, welcome.
    I'd note that Director Clapper and General Stewart have 
already appeared before the Senate Armed Services Committee 
this morning and I appreciate you both suffering through a very 
long day of testimony. I also thank our other witnesses for 
their attendance and participation.
    Today's hearing presents an opportunity for both the 
witnesses and the members of the committee. It's my sincere 
hope that our discussion will shed some light on the dedicated 
and tireless work of our intelligence community professionals, 
the men and women represented by our witnesses. Their efforts 
to keep America safe often go unrecognized, but that does not 
mean it goes unnoticed.
    I've spent the better part of 20 years as a member of the 
Congressional intelligence committees and have seen the scale, 
scope, and type of threats to our Nation evolve greatly. We no 
longer live in a world defined by a few distinct and well-
defined threats. Our intelligence professionals are faced with 
collecting against and analyzing the threat posed by a range of 
actors from nation-states on down to home-grown violent 
extremists.
    Director Clapper, in your statement you've pulled together 
the collective expertise of the intelligence community's 
extraordinary men and women. We value your laying out for our 
benefit the diverse and evolving and decentralized system of 
threats that imperil this Nation and its interests across the 
globe. I ask that everyone take a moment to reflect on the 
range of expertise required to make sense of this information.
    I note in your statement that cyber and, more broadly, 
technology headline your global threats. I agree with the 
assessment that innovation and increased reliance on 
information technology in the next few years will have 
significant consequences on society's way of life and, more 
specifically, how your officers perform their mission.
    I look forward to your highlighting some of the challenges 
and consequences as you see them. I also remain concerned by 
the technological reach of ISIL and the danger of their using 
the information technology, social media, online unlimited 
research capabilities we use every day to propagate their 
barbaric message. Jim, I do hope you'll dedicate some time to 
laying out that particular threat, and I thank you again for 
being here today.
    I'd like to also highlight for my colleagues that the 
Committee will be holding a classified hearing on worldwide 
threats later this week. To the degree it needs saying, please 
reserve any questions that you think might not be appropriate 
for an open session until the Thursday hearing.
    With that, again I welcome our witnesses here today and I 
turn to the Vice Chairman for any comments she might have.

 OPENING STATEMENT OF HON. DIANNE FEINSTEIN, VICE CHAIRMAN, A 
                  U.S. SENATOR FROM CALIFORNIA

    Vice Chairman Feinstein. Thanks very much, Mr. Chairman. I 
join you in welcoming our witnesses and also thanking the 
intelligence community for its service to this country. I also 
share your sentiment that this annual open hearing is important 
to help explain to the American people the threats that face 
this Nation and the efforts of the dedicated men and women of 
the intelligence community to keep us safe.
    I want to open my comments by recognizing the significant 
contributions made by you, Director Clapper, as the leader of 
this community. You're the longest serving Director of National 
Intelligence to date and I think both the Chairman and I 
remember when this, the DNI, was developed and put into effect. 
Your capable stewardship of the community has driven it to be a 
more integrated and capable organization than at any time in 
history. So I want to personally thank you for the 
contributions you have made to this country's security.
    But, as you know, there is no rest for the weary. The 
threats that face this Nation and our allies seem only to grow. 
The Syrian war is approaching its fifth year. Yet Bashar Al-
Assad is still in power and a refugee crisis is destroying the 
lives of millions of innocent families and wreaking havoc 
across Europe.
    We are witnessing the resurgence of an unpredictable Russia 
in Eastern Europe and Syria. North Korea last month conducted 
its fourth nuclear bomb test and two days ago conducted what it 
called a space launch. Of course, this is actually a thinly 
veiled test to develop missiles that could deliver weapons of 
mass destruction against a number of countries, including the 
United States.
    While these threats are significant and troubling, we are 
all deeply concerned about the threat from ISIL, the Islamic 
State of Iraq and the Levant, and other terrorist groups. To 
us, ISIL is much more than a regional threat within the Syrian 
and Iraqi borders. It's a terrorist army, a global exporter of 
terrorism, with a presence in a number of countries. The 
official count is 11, including ISIL affiliates. But some of 
our friends, like the King of Jordan, have said they're in as 
many as 17 countries. And ISIL has the ability to spread its 
message of hate and violence around the world using social 
media in a very sophisticated way.
    Director Clapper, I've read your written comments and am 
very much interested in your assessment of these global 
threats, their status today, and the outlook for the future.
    I'd also ask you to comment on how the intelligence 
community is positioned to address these threats. Is it better 
today than it was, let's say, five years ago? For instance, 
while the coalition's air campaign is helping to deny ISIL some 
territorial safe havens and financial resources, how do we 
degrade it and destroy it if all they need to carry out an 
attack on the West is an Internet connection and an encrypted 
message application?
    I'd like to hear your assessments of how the rise of end-
to-end encryption has impacted our Nation's ability to identify 
and track individuals who seek to do us harm. Director Comey 
has spoken of this concern often. Director Rogers recently 
highlighted it as well. I'm interested in your views today 
about its impact and how you recommend we tackle this problem 
of terrorists and criminals communicating via these encrypted 
message applications.
    The U.S. Freedom Act that passed last year eliminated the 
bulk collection of telephone communications metadata, and the 
new law now requires specific queries, with FISA Court 
approval, to individual telecommunication companies. Has this 
change affected your ability to discover new threats and 
relationships?
    I'll save the rest of my comments for questions. But, 
gentlemen, thank you very much for being here. We look forward 
to discussion.
    Chairman Burr. Thank you, Vice Chairman.
    Before I recognize Director Clapper, let me say to members 
it's my intent--hopefully it's been conveyed to all members--
you will be recognized for five minutes in the order that you 
appeared, with one exception. If there is no objection, when 
Director Clapper's testimony is over I would like to recognize 
Senator Lankford for a first set of questions, for the simple 
reason that on Tuesdays he has to preside over the Senate, and 
he has to preside at 3:20 today and I'd like to let him get a 
set of questions in. So, Jim, James, you will be recognized.
    With that, the floor is yours, Director Clapper.

   STATEMENT OF HON. JAMES R. CLAPPER, DIRECTOR OF NATIONAL 
 INTELLIGENCE; ACCOMPANIED BY: JOHN BRENNAN, DIRECTOR, CENTRAL 
 INTELLIGENCE AGENCY; LtGen VINCENT STEWART, DIRECTOR, DEFENSE 
 INTELLIGENCE AGENCY; JAMES COMEY, DIRECTOR, FEDERAL BUREAU OF 
   INVESTIGATION; AND ADM MICHAEL ROGERS, DIRECTOR, NATIONAL 
                        SECURITY AGENCY

    Director Clapper. Chairman Burr and Vice Chairman 
Feinstein, members of the committee: First, Chairman Burr, 
thanks very much for the acknowledgment particularly of the 
great men and of women of the U.S. intelligence community whom 
we represent here today. It's very appropriate that you do that 
for the great work that they do. And, Madam Vice Chairman, 
thanks very much for acknowledging my long service. It's very 
gracious of you.
    We're here today to update you on some, but certainly not 
all, of the pressing intelligence and national security issues 
facing our Nation, many of which you both alluded to, and so 
there will be a certain amount of echo here, I guess. In the 
interest of time and to get to your questions, we'll cover just 
some of the wavetops, and mine will be the only opening 
statement so we can go to your questions.
    I apologize in advance to the crossover members who were 
present this morning at the Senate Armed Services Committee. 
But in the highest traditions of that's our story, we're 
sticking to it, it'll be the same statement.
    As I said last year, unpredictable instability has become 
the new normal and this trend will continue for the foreseeable 
future. Violent extremists are operationally active in about 40 
countries. Seven countries are experiencing a collapse of 
central government authority and 14 others face regime-
threatening or violent instability or both. Another 59 
countries face a significant risk of instability through 2016.
    The record level of migrants, more than one million 
arriving in Europe, is likely to grow further this year. 
Migration and displacement will strain countries in Europe, 
Asia, Africa, and the Americas. There are some 60 million 
people worldwide considered displaced. Extreme weather, climate 
change, environmental degradation, rising demand for food and 
water, poor policy decisions, and inadequate infrastructure 
will magnify this instability.
    Infectious diseases and vulnerabilities in the global 
supply chain for medical countermeasures will continue to pose 
threats. For example, the Zika virus, first detected in the 
Western Hemisphere in 2014, has reached the U.S. and is 
projected to cause up to four million cases in this hemisphere.
    With that preface, I want to briefly comment on both 
technology and cyber specifically. Technological innovation 
during the next few years will have an even more significant 
impact on our way of life. This innovation is central to our 
economic prosperity, but it will bring new security 
vulnerabilities. The Internet of Things will connect tens of 
billions of physical devices that could be exploited. 
Artificial intelligence will enable computers to make 
autonomous decisions about data and physical systems and 
potentially disrupt labor markets.
    Russia and China continue to have the most sophisticated 
cyber programs. China continues cyber espionage against the 
United States. Whether China's commitment of last September 
moderates its economic espionage remains to be seen.
    Iran and North Korea continue to conduct cyber espionage as 
they enhance their attack capabilities. Non-state actors also 
pose cyber threats. ISIL has used cyber to its great advantage, 
not only for recruitment and propaganda, but also to hack and 
release sensitive information about U.S. military personnel. As 
a non-state actor, ISIL displays unprecedented online 
proficiency.
    Cyber criminals remain the most pervasive cyber threat to 
the U.S. financial sector. They use cyber to conduct theft, 
extortion, and other criminal activities.
    Turning to terrorism, there are now more Sunni violent 
extremist groups, members, and safe havens than at any time in 
history. The rate of foreign fighters traveling to the conflict 
zones in Syria and Iraq in the past few years is without 
precedent. At least 38,200 foreign fighters, including at least 
6,900 from western countries, have traveled to Syria from at 
least 120 countries since the beginning of the conflict in 
2012. As we saw in the November Paris attacks, returning 
foreign fighters with firsthand battlefield experience pose a 
dangerous operational threat.
    ISIL has demonstrated sophisticated attack tactics and 
tradecraft. ISIL, including its eight established and several 
more emerging branches, has become the preeminent global 
terrorist threat. ISIL has attempted or conducted scores of 
attacks outside of Syria and Iraq in the last 15 months, and 
ISIL's estimated strength globally now exceeds that of Al-
Qaeda.
    ISIL's leaders are determined to strike the U.S. homeland 
beyond inspiring home-grown violent extremist attacks. Although 
the U.S. is a harder target than Europe, ISIL external 
operations remain a critical factor in our threat assessment 
for 2016.
    Al-Qaeda's affiliates also have proven resilient. Despite 
counterterrorism pressure that's largely decimated the core 
leadership in Afghanistan and Pakistan, Al-Qaeda affiliates are 
positioned to make gains in 2016. Al-Qaeda in the Arabian 
Peninsula and the Al-Nusra Front, the Al-Qaeda chapter in 
Syria, are the two most capable Al-Qaeda branches.
    The increased use by violent extremists of encrypted and 
secure Internet and mobile-based technologies enables terrorist 
actors to go dark and serves to undercut intelligence and law 
enforcement efforts.
    Iran continues to be the foremost state sponsor of 
terrorism and exerts its influence in regional crises in the 
Middle East through the Islamic Revolutionary Guard Corps-Quds 
Force, its terrorist partner Lebanese Hezbollah, and proxy 
groups. Iran and Hezbollah remain a continuing terrorist threat 
to U.S. interests and partners worldwide.
    We saw firsthand the threat posed to the United States by 
home-grown violent extremists in the July attack in Chattanooga 
and the attack in December in San Bernardino. In 2014 the FBI 
arrested nine ISIL supporters and in 2015 that number increased 
over fivefold.
    Turning to weapons of mass destruction, North Korea 
continues to conduct test activities of concern to the United 
States. On Saturday evening Pyongyang conducted a satellite 
launch and subsequently claimed that the satellite was 
successfully placed in orbit. Additionally, last month North 
Korea carried out its fourth nuclear test, claiming it was a 
hydrogen bomb. But the yield was too low for it to have been a 
successful test of a thermonuclear device.
    Pyongyang continues to produce fissile material and develop 
a submarine-launched ballistic missile. It is also committed to 
developing a long-range nuclear-armed missile that's capable of 
posing a direct threat to the United States, although the 
system has not been flight tested.
    Despite its economic challenges, Russia continues its 
aggressive military modernization program. It has the largest 
and most capable foreign nuclear-armed ballistic missile force. 
It has developed a cruise missile that violates the 
Intermediate-Range Nuclear Forces, or INF, Treaty.
    China continues to modernize its nuclear missile force and 
is striving for a secure second strike capability. It continues 
to profess a ``no first use'' doctrine.
    The Joint Comprehensive Plan of Action, or JCPOA, provides 
us much greater transparency into Iran's fissile material 
production. It increases the time the Iranians would need to 
produce enough highly enriched uranium for a nuclear weapon 
from a few months to about a year. Iran probably views the 
JCPOA as a means to remove sanctions while preserving some 
nuclear capability. Iran's perception of how the JCPOA helps it 
achieve its overall strategic goals will dictate its level of 
adherence or compliance to the agreement over time.
    Chemical weapons continue to pose a threat in Syria and 
Iraq. Damascus has used chemicals against the opposition on 
multiple occasions since Syria joined the Chemical Weapons 
Convention. ISIL has also used toxic chemicals in Iraq and 
Syria, including the blister agent sulfur mustard--the first 
time an extremist group has produced and used a chemical 
warfare agent in an attack since Aum Shinrikyo used sarin in 
Japan in 1995.
    Turning to space and counter-space, there are about 80 
countries that are now engaged in the space domain. Russia and 
China well understand how our military fights and how heavily 
we rely on space. They're each pursuing destructive and 
disruptive anti-satellite systems. China continues to make 
progress on its anti-satellite missile program.
    Moving to counter-intelligence, the threat from foreign 
intelligence entities, both state and non-state, is persistent, 
complex, and evolving. Targeting collection of U.S. political, 
military, economic, and technical information by foreign 
intelligence services continues unabated. Russia and China pose 
the greatest threat, followed by Iran and Cuba on a lesser 
scale. As well, the threat from insiders taking advantage of 
their access to collect and remove sensitive national security 
information will remain a persistent challenge for us.
    With respect to trans-national organized crime, I do want 
to touch on one crime issue, specifically drug trafficking. 
Southwest border seizures of heroin in the United States have 
doubled since 2010. Over 10,000 people died of heroin overdoses 
in the United States in 2014, much of it laced with fentanyl, 
which is 30 to 50 times more potent than heroin. In that same 
year, more than 28,000 died from opiate overdoses. And cocaine 
production in Colombia, from which most U.S. supplies 
originate, has increased significantly.
    Now let me quickly move through a few regional issues. In 
East Asia, China's leaders are pursuing an active foreign 
policy while dealing with much slower economic growth. Chinese 
leaders have also embarked on the most ambitious military 
reforms in China's history. Regional tension will continue as 
China pursues construction at its outposts in the South China 
Sea.
    Russia has demonstrated its military capabilities to 
project itself as a global power, command respect from the 
West, maintain domestic support for the regime, and advance 
Russian interests globally. Moscow's objectives in the Ukraine 
will probably remain unchanged, including maintaining long-term 
influence over Kiev and frustrating its attempts to integrate 
into western institutions.
    Putin is the first leader since Stalin to expand Russia's 
territory. Moscow's military venture into Syria marks its first 
use since its foray into Afghanistan of significant 
expeditionary combat power outside of the post-Soviet space. 
Its interventions demonstrate the improvements in Russian 
military capabilities and the Kremlin's confidence in using 
them.
    Moscow faces the reality, however, of economic recession, 
driven in large part by falling oil prices as well as 
sanctions. Russia's nearly 4 percent GDP contraction last year 
will probably extend well into 2016.
    In the Mideast and South Asia, there are more cross-border 
military operations under way in the Mideast region than at any 
time since the 1973 Arab-Israeli War. In Iraq, anti-ISIL forces 
in Iraq will probably make incremental gains through this 
spring similar to those made in Baiji and Ramadi in the past 
few months. ISIL is now somewhat on the defensive and its 
territory and manpower are shrinking, but it remains a 
formidable threat.
    In Syria, pro-regime forces have the initiative, having 
made some strategic gains near Aleppo and Latakia in the north, 
as well as in southern Syria. Manpower shortages, however, will 
continue to undermine the Syrian regime's ability to accomplish 
its strategic battlefield objectives. The opposition has less 
equipment and firepower and its groups lack unity. They 
sometimes have competing battlefield interests and fight among 
themselves.
    Meanwhile, some 250,000 people have been killed as this war 
has dragged on. The humanitarian situation in Syria continues 
to deteriorate. As of last month, there were approximately 4.4 
million Syrian refugees and another 6.5 million internally 
displaced persons, which together represent about one-half of 
Syria's population.
    In Libya, despite the December agreement to form a new 
government of national accord, establishing authority and 
security across the country will be difficult at best, with 
hundreds of militia groups operating throughout the country. 
ISIL has established its most developed branch outside of Syria 
in Libya--outside of Syria and Iraq, in Libya, and maintains a 
presence in Sirte, Benghazi, Tripoli, and other areas of the 
country.
    In Yemen, the conflict will probably remain stalemated 
through at least mid-2016. Meanwhile, AQAP and ISIL's 
affiliates in Yemen have exploited the conflict and the 
collapse of government authority to recruit and expand 
territorial control. The country's economic and humanitarian 
situation also continues to deteriorate.
    Iran deepened its involvement in the Syria, Iraqi and 
Yemeni conflicts in 2015. It also increased military 
cooperation with Russia, highlighted by its battlefield 
alliance in Syria in support of the regime. Iran's supreme 
leader continues to view the United States as a major threat. 
We assess his views will not change, despite the implementation 
of the JCPOA deal, the exchange of detainees, and the release 
of the 10 U.S. sailors.
    In South Asia, Afghanistan is at serious risk of a 
political breakdown during 2016, occasioned by mounting 
political, economic, and security challenges. Waning political 
cohesion, increasingly assertive local power brokers, financial 
shortfalls, and sustained countrywide Taliban attacks are 
eroding stability.
    Needless to say there are many more threats to U.S. 
interests worldwide that we can address, most of which are 
covered in our statement for the record. But I'll stop this 
litany of doom and open to your questions.
    Before I do that, I do want to answer one question that 
Madam Vice Chairman asked about the state of the community now 
vs. five years ago. I would like to think that we are better as 
a community just from the simple proposition of the sum being 
greater than the parts, because we operate as an integrated 
enterprise. Others may have a comment on that. None of them are 
unwilling to disagree with me, but that's my view.
    So I'll stop there and open to your questions.
    [The prepared statement of Director Clapper follows.]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Burr. Director Clapper, thank you for that 
testimony.
    I remind all members that everybody at the witness table is 
available for questions directed at them. With that, I'd 
recognize Senator Lankford for five minutes.
    Senator Lankford. Thank you, Mr. Chairman.
    To all of you, thank you. I do remind people back home, 
because in Oklahoma we're extremely grateful for many folks in 
the armed services that serve us every single day. We recognize 
them, see them, recognize them by their uniforms. But I remind 
them also that there are a lot of people in the intelligence 
community that they won't recognize at all and they'll never 
see and they'll never be able to thank personally.
    So would you pass on gratitude to them, and we are 
incredibly grateful for the very difficult work that they do 
every single day.
    Director Clapper, you said this morning in your 50 years in 
the intelligence business you can't recall a more diverse array 
of challenges. And you graced us with a long list of doom as 
you listed it just now, whether that be space, whether that be 
proliferation, whether that be radical Islamic terrorism and 
such.
    I want to focus on one of the areas that you talked about 
specifically and that's narcotics and the movement into our 
country and what we deal with on a day to day basis as a 
challenge. Again, this morning you had mentioned you thought 
the focus should be more on the interdiction. So my challenge 
is for this group and my interest: What are we doing on the 
intel gathering to be able to find out what's happening, the 
pathways that some of these narcotics are moving into the 
United States and the interdiction, and how we're cooperating 
among agencies, how's that communication going?
    Director Clapper. Well, sir, the challenge, as I indicated 
this morning--and I hark back to a series of testimonies by 
General Kelly, the former commander of the Southern Command, in 
which he made the point that we did have a great deal of 
intelligence on drug flow into the United States--our challenge 
has been the lack of resources sometimes to react to it, to 
actually interdict it.
    So in one sense I think that's a plea or a commercial for 
more operational assets to respond. I'm a big fan of the Coast 
Guard and I think the Coast Guard has done some great work. The 
deployment of these new Coast Guard cutters, which has a 
national security component to it, has had a dramatic impact 
when they've been able to be employed. So to me the big thing 
here is the operational resource to respond. I think the 
community works very well together on the issue of drug 
intelligence and facilitating interdiction.
    Senator Lankford. Any comments on that from any of the 
other leaders?
    [No response.]
    Let me move on then as well, because there's been a lot of 
conversation about Libya and ISIL and their movement into other 
areas they call provinces and moving all around the world. 
Libya has been especially large in that. What do you think is 
ISIL's intention in Libya?
    Director Clapper. Well, I think not unlike what they've 
done with Syria and Iraq. What's unique about ISIL, of course, 
is its possession and control over territory, and that's been 
the case in Syria and Iraq, and of course that presents certain 
vulnerabilities when they assume the accoutrements or the 
traits of a nation- state.
    I think it's similarly their goal in Libya. It's 
essentially an ungoverned space and also access to substantial 
oil resources, just as they've had in Syria. So I think there 
is some commonality.
    They're right now kind of centered or headquartered in 
Sirte, which is kind of in the center of the coast of Libya, 
and they're trying to spread out along the coast and take over 
more and more areas. They are present, as I indicated in my 
statement, in the major cities, notably Benghazi and Tripoli.
    Senator Lankford. You mentioned as well about Iran still 
being the largest state sponsor of terrorism in the world. How 
have you seen that role and that direction towards terrorism 
and support of terrorism since the signing of the JCPOA? Since 
that has occurred, have you seen a change in Iran's behavior 
towards sponsoring terrorism?
    Director Clapper. Have not seen a change in the behavior of 
the Quds Force. They are right now kind of consumed with the 
situation in Iraq and Syria, and as well in supporting the 
Houthis in Yemen. So that has been the focus predominantly. 
That's not to say they're not interested elsewhere, but that's 
where the focus of their efforts has been.
    Senator Lankford. Again, you had mentioned this morning 
that there have been about 140 missiles launched by Iran in 
violation of UN agreements, and then two additional just in the 
last few months. Any change in behavior you've seen in their 
testing of ballistic missiles?
    Director Clapper. No. You're exactly right, Senator 
Lankford, that's what I said. Since 2010 and the promulgation 
of the UN Security Council Resolution 1929, they've fired about 
140 missiles. About half of that took place during the 
negotiations. They launched two, one in October and one in 
November, which I personally think was a message that they are 
still going to continue to develop what is already a very 
robust missile force.
    Senator Lankford. Thank you. I yield back.
    Chairman Burr. Thank you, Senator Lankford.
    The Chair would recognize himself for a couple of 
questions.
    Director Comey, what's the risk to law enforcement and to 
prosecution if, when presented a legal court order, a company 
refuses to provide the communications that the court has 
ordered them to?
    Director Comey. The risk is that we won't be able to make a 
case and a really bad guy will go free.
    Chairman Burr. Can you for the American people set a 
percentage of how much of that is terrorism and how much of 
this fear is law enforcement and prosecutions that take place 
in every town in America every day?
    Director Comey. I'd say this problem we call ``Going 
Dark,'' which as Director Clapper mentioned is the growing use 
of encryption both to lock devices when they sit there and to 
cover communications as they move over fiber optic cables, is 
actually overwhelmingly affecting law enforcement, because it 
affects cops and prosecutors and sheriffs and detectives trying 
to make murder cases, car accident cases, kidnapping cases, 
drug cases. It has an impact on our national security work, but 
overwhelmingly this is a problem that local law enforcement 
sees.
    Chairman Burr. This would include pornography, and the list 
goes on and on and on, which I think there would be consensus 
in America that if that's carried out, that if a court 
certifies that the reason is there, that a company ought to 
then produce that information. Is that logical?
    Director Comey. Yes, especially with respect to devices, 
phones, that default lock. That is the overwhelming concern of 
state and local law enforcement, because all of our lives are 
becoming increasingly digital. Those devices are going to hold 
the evidence of child pornography, communications that someone 
made before they were killed, before they went missing, the 
evidence that will be necessary to solve a crime, and including 
things like car accidents.
    So it is a big problem for law enforcement, armed with a 
search warrant, when you find a device that can't be opened 
even though the judge said there's probable cause to open it. 
As I said, it affects our counterterrorism work. San 
Bernardino, a very important investigation to us; we still have 
one of those killers' phones that we have not been able to 
open. It's been over two months now. We're still working on it.
    But this also occurred on the criminal side. A woman was 
murdered in Louisiana last summer, eight months pregnant, 
killed. No clues to who did it, except her phone was there when 
she's found, killed. They couldn't open it, still can't open 
it. So the case remains unsolved.
    So this is something I hear about all over the country from 
my partners in state and local law enforcement.
    Chairman Burr. Is it safe to say that if companies were 
required to honor that court order, that law enforcement and 
the prosecution element isn't concerned at all at how they 
access that--that can be proprietary and within each company--
but supplying the information is absolutely crucial to the 
continuation of that investigation and prosecution?
    Director Comey. That's one of the aspects of the 
conversation, which is healthy. There's a robust debate going 
on and there ought to be because these are important issues. 
But a part that gets confusing to me is when folks talk like we 
want access to companies' servers, we want access to their 
source code. What we would like is a world where people are 
able to comply with court orders.
    Lots of companies do. Both people who make phones are able 
to unlock them when judges order it and people who provide 
communication services are able to comply with judges' orders. 
Others can't and therein lies the problem. But it's not about 
us trying to get a back door, a term that confuses me, frankly. 
I don't want a door, I don't want a window, I don't want a 
sliding glass door. I would like people to comply with court 
orders, and that's the conversation we're trying to have.
    Chairman Burr. Thank you, Director Comey.
    Vice Chairman.
    Vice Chairman Feinstein. Thanks very much, Mr. Chairman.
    Mr. Brennan, I'd like to ask you a question if I may, 
subject Libya. How does the CIA assess ISIL's intrusions into 
Libya?
    Director Brennan. We see Libya as the most important 
theater for ISIL outside of the Syria-Iraq theater. They have 
several thousand members there. They have absorbed some of the 
groups inside of Libya, including Ansar Al-Sharia, that was 
very active prior to ISIL's rise.
    Libya has been a place where this form of extremism and 
terrorism has grown up over the years. As the borders of the 
Syria-Iraq area were being tightened down, we know that some of 
those foreign fighters started to divert into Libya. So Libya 
has become a magnet for individuals not only inside of Libya, 
but from the African continent as well as from outside. So it 
is a real issue, a real problem. But we see ISIL in Libya as a 
very, very important hub for ISIL activities.
    Vice Chairman Feinstein. Second question: Assessment on 
North Korea. We know they possess anywhere from 10 to 20 both 
uranium and plutonium weapons. We now have seen the recent 
launch of the Taepodong 2, which my understanding is is capable 
of reaching the United States. And then there's the KN08.
    How do you assess the Korean leader's intentions with what 
he is doing with respect to these tests and the development of 
both a plutonium and uranium stream of weapons?
    Director Brennan. I think it's very obvious that Kim Jong 
Un is trying to demonstrate to the world that he has capability 
both in terms of the nuclear test as well as ballistic missile, 
an intercontinental ballistic missile capability, that he wants 
to showcase as a way to demonstrate his strength, but also as a 
way to market some of his proliferation capabilities. So it is 
something that is obviously a key concern to the intelligence 
community as a whole. It is a priority collection area for us. 
But the assessment, at least from my perspective, is that he 
has developed both the nuclear capability as well as developing 
this ballistic missile capability, mating them together, so 
that he can demonstrate that he has reach far beyond the Korean 
Peninsula.
    Vice Chairman Feinstein. Third question, a little bit more 
time: How do you assess the Taliban and Al-Qaeda in 
Afghanistan? How much of the territory of Afghanistan today is 
controlled by the Taliban?
    Director Brennan. It's a difficult question to address 
because a lot of times the Taliban control of certain areas is 
dynamic and fluid. So they'll go in and take various government 
and military outposts, seize it, and then pull back. There's 
large parts of that country that fall under Taliban influence, 
and we've been working very closely with the Afghan military 
and security services, intelligence services, to try to 
concentrate their focus on areas that need to be protected, 
whether it be critical infrastructure, cities, transit and 
transportation routes.
    But, as you well know, the Taliban control a lot of terrain 
outside of the central government's reach. And Al-Qaeda 
continues to have a presence, typically inside of the eastern 
part of Afghanistan. They continue to work with the Taliban as 
well as with the Haqqanis. Collectively, they present a serious 
threat to the stability of the Afghan government, as well as to 
our personnel, U.S. personnel, inside of Afghanistan.
    Vice Chairman Feinstein. Thank you.
    That's it for now. Thank you.
    Chairman Burr. Senator Wyden.
    Senator Wyden. Thank you very much.
    Gentlemen, my view is you couldn't have passionate debates 
in this room without the great work that the men and women of 
the intelligence community do to preserve our freedom. I just 
want to start by saying we're very grateful for that.
    Director Brennan, in 2014 the CIA conducted an unauthorized 
search of Senate files, including the emails of Senate staff 
investigating the CIA's use of torture. The CIA Inspector 
General later stated that the search involved improper agency 
access to Senate files, and a review board that you appointed 
concluded that the search resulted in inappropriate access to 
the committee's work product.
    You initially denied that search took place, but the 
reports of both your inspector general and the review board 
show that this denial was at odds with the facts. After the 
facts were publicly exposed, the CIA even wrote an apology 
letter that you did not send.
    Now, senior officials from the NSA, the FBI, and the Office 
of the Director of National Intelligence have all testified 
that it would be inappropriate for their agencies to secretly 
search Senate files without external authorization. But we 
still have not gotten an acknowledgment from you.
    So I think it would be important--I'd like to hear from 
you. I'd like to set the record straight that this would never 
happen again. Would you agree that the CIA's 2014 search of 
Senate files was improper?
    Director Brennan. This is the annual threat assessment, is 
it not? Yes.
    I think, Senator, as you well know, there were very unique 
circumstances associated with this whole affair. These were CIA 
computers, at a CIA-leased facility. It was a CIA network that 
was shared between Senate staffers conducting that 
investigation for your report, as well as CIA personnel. When 
it became quite obvious to CIA personnel that Senate staffers 
had unauthorized access to an internal draft document of CIA, 
there was an obligation on the part of CIA officers who had 
responsibility for the security of that network to investigate 
to see what might have been the reason for that access that the 
Senate staffers had to that document.
    They conducted that investigation. I spoke to the Chairman 
and Vice Chairman about it. I tried to make sure they 
understood exactly what the challenge was that we had. We 
conducted that investigation. I then subsequently referred the 
matter to the IG when the Senate leadership was concerned about 
the actions of CIA officers. I also subsequently convened an 
accountability board. And I think if you were to read those 
reports, including the accountability board, you would see that 
it determined that the actions of the CIA were reasonable, 
given the very unclear and unwritten or unspecific 
understanding between the committee and CIA at the time in 
terms of----
    Senator Wyden. Mr. Director, my time is short, but that's 
not what the inspector general or the----
    Director Brennan. I respectfully disagree.
    Senator Wyden [continuing]. Or the review board----
    Director Brennan. I respectfully disagree with you, 
Senator.
    Senator Wyden. I'd like to read the exact words. The exact 
words of the review board were: ``It resulted in inappropriate 
access to SSCI work product.'' And your inspector general 
reached the same conclusion.
    So the question here is when you're talking about spying on 
a committee responsible for overseeing your agency, in my view 
that undermines the very checks and balances that protect our 
democracy, and it's unacceptable in a free society. And your 
compatriots in all of the sister agencies agreed with that. 
Now, you disagree?
    Director Brennan. Yes. I think you mischaracterized both 
their comments as well as what's in those reports. And I 
apologized to the Chairman and the Vice Chairman about the de 
minimis access and inappropriate access that CIA officers made 
to five emails or so of Senate staffers during that 
investigation, and I apologized to them for that very specific 
inappropriate action that was taken as part of a very 
reasonable investigative action.
    But do not say that we spied on Senate computers or your 
files. We did not do that. We were fulfilling our 
responsibilities.
    Senator Wyden. I read the exact words of the inspector 
general and exact words of the review board. You appointed the 
review board. They said nobody ought to be punished, but they 
said there was improper access.
    My point is, in our system of government we have 
responsibilities to do vigorous oversight and we can't do 
vigorous oversight if there are improper procedures used to 
access our files.
    My time is up, Mr. Chairman.
    Director Brennan. Senator, I would say, do you not agree 
that there was improper access that Senate staffers had to CIA 
internal deliberative documents? Was that not inappropriate, 
unauthorized?
    Senator Wyden. I can tell you, having talked at length to 
our staff, everything that we determined they did was 
appropriate. But I asked about CIA conduct and two reviews, the 
inspector general and your review board, said it was improper.
    Director Brennan. Yes, and I'm still awaiting the review 
that was done by the Senate to take a look at what the 
staffers' actions were. Separation of powers between the 
Executive and Legislative Branches, Senator, goes both ways. As 
I said, I apologized to the Chairman and the Vice Chairman for 
the very specific inappropriate access that agency officers who 
were investigating this incident made to those emails, very 
limited inappropriate actions. Overall, that investigation was 
done consistent with our obligations, consistent with the law, 
consistent with our responsibilities.
    And I do think that you're mischaracterizing the full tenor 
of both the accountability board and the inspector general's 
report.
    Senator Wyden. It's pretty hard to mischaracterize word for 
word quotes. They used the words ``improper access.''
    Chairman Burr. I'll exercise something here and recognize 
Senator Heinrich.
    Senator Heinrich. I want to start by thanking our panelists 
for being here and for the continued excellent work that their 
respective agencies do every day in providing world-class 
strategic analysis and in keeping our country safe in a world 
of growing and complex threats that Director Clapper so 
eloquently laid out twice today. The work done by your agencies 
is critical and I want to thank the men and women of those 
agencies who continue to do excellent work.
    I also want to thank Chairman Burr for holding this 
hearing. It's been two years since we've had one of these and I 
hope we don't wait that long next time. I think it's important 
that the American people have a chance to hear from these 
officials directly, especially since so many of our actions 
with these Directors take place behind closed doors. While 
that's certainly appropriate in most circumstances, a public 
debate I believe benefits tremendously from transparency, and I 
appreciate the opportunity today.
    I want to start with Admiral Rogers. Admiral, as you know, 
the world has seen a truly alarming increase in attacks on 
critical infrastructure. For example, in December DHS reported 
a 20 percent increase in cyber incidents between fiscal year 
2014 and fiscal year 2015. While critical manufacturing was the 
most targeted sector in that, energy ranked second in the 
number of incidents, with water and waste water systems coming 
in third.
    On top of that, we've seen recent attacks against Turkish 
banks, Ukrainian and Israeli electricity providers, and it was 
recently revealed that Iranian hackers infiltrated a dam just 
north of New York City in 2013.
    So my question for you is this: Does the IC, particularly 
NSA, have sufficient insight into the sorts of cyber threats to 
U.S. critical infrastructure that we're seeing by foreign 
actors, and what can we do to better position ourselves against 
those threats specifically to critical infrastructure?
    Admiral Rogers. You never have all the insight that you 
would like. I don't think you're going to hear an intel 
professional tell you, hey, look, I couldn't use more insight.
    I think the biggest challenge in some ways is not so much 
the level of insight, but it's how do we generate, take that 
insight and generate action, and make the changes that I think 
we all believe are necessary, given the dynamics of the world 
that you've outlined, that I don't think are short-term trends. 
I don't see this changing in the near term. I see this as the 
nature of the world we're living in and we're likely to be 
living in for some period of time. So the challenge I think is 
how do we take those insights and generate action. That's the 
biggest challenge to me.
    Senator Heinrich. Have you thought about, particularly 
given the focus of those on things like electrical generation 
and water and waste water systems, the ramifications of some of 
the changes within those fields, of distributed approaches and 
resiliency, as opposed to the very traditional approaches of 
sort of one-way generation and large-scale transmission?
    Admiral Rogers. Right. And we're watching most of the 
sectors in the area trying to go that approach. How can you 
build redundancy and resiliency, look at fragmentation and 
duplication? I've talked to several elements in power and water 
over the course of the last year, and you can see elements 
within the sectors trying to go that way. But I'd be the first 
to acknowledge, just given the breadth of infrastructure within 
our Nation, the amount of time it's going to take to do that 
across the entire breadth of our Nation, that is not an 
insignificant challenge.
    Senator Heinrich. Clearly. Would you agree that some of the 
movement towards more distributed purchase, particularly within 
electrical generation, things like microgrids, islandable 
microgrids, distributed storage, distributed generation, are 
helpful in mitigating the potential impact of a large-scale 
attack?
    Admiral Rogers. Yes. I think that's part of, that should be 
a fundamental element of, a broader strategy. I just try to 
remind people, there's no silver bullet, if that makes sense.
    Senator Heinrich. As a smart Senator said, sometimes 
there's silver buckshot when you don't have a silver bullet.
    Director Brennan, while the United States is obviously not 
addressing the ISIL issue alone in Syria and Iraq, the reality 
is that many of our foreign partners in the region are at times 
heavily distracted by unrelated conflicts that are sometimes 
counterproductive to that fight. For example, as you're well 
aware, Turkey is targeting the very Kurds who've been some of 
the most engaged fighters in the battle against ISIS. We have 
Saudi Arabia pouring money and equipment into the fight in 
Yemen instead of focusing on ISIL in Syria.
    You've spent a lot of time in the Middle East over the 
years. What has the CIA done and what else might be done to get 
our regional partners more focused on confronting the threat 
posed by ISIL?
    Director Brennan. As you point out, Senator, the Middle 
East right now I think is racked by more instability and 
violence and inter-state conflict than we have seen certainly 
in the past 50 years. The amount of bloodshed and the 
humanitarian suffering is I think unprecedented.
    We, CIA, work very closely with our partners throughout the 
region trying to make sure that those intelligence and security 
services are fulfilling their responsibilities professionally 
as far as making sure that we can share information with them 
about the flow of foreign fighters in particular, given that 
there is such transit between and among these countries of 
individuals who might go to Syria, Iraq, and then down to Libya 
or Egypt. We're trying to make sure we give them the 
intelligence they need, give them the training they need, but 
also give them the professional training that is required, 
because there are tremendous obligations on them to make sure 
that they are able to carry out their responsibilities while at 
the same time respect the human rights obligations that they 
have as security services.
    So what we're trying to do is to serve as an interlocutor 
with many of them and to see whether or not we can enhance 
their relationships. Sometimes not only do we have inter-state 
conflicts, but we have sort of intramural conflicts among some 
of these countries, which then extends to the services.
    So I think building up these intelligence and security 
services, giving them the wherewithal to address the problems, 
but again making sure that they carry out their 
responsibilities professionally, is very important.
    Chairman Burr. Thank you, Senator Heinrich.
    The Chair would also make a note that the Senator is 
correct, we didn't have an open threats hearing last year. We 
had a closed one. But last year we had open hearings with 
Admiral Rogers from the NSA, Director Rasmussen from the NCTC, 
Director Comey from the FBI. And we had an open hearing 
scheduled for Director Brennan and were blitzed by a snowstorm. 
Maybe had we had him in he wouldn't have fallen and wrecked his 
knee.
    It is the intent of the Chair to continue to allow every 
agency the opportunity, not just to be here for a worldwide 
threat hearing, but to come in and share with the American 
people what it is they do, why they do it, but, more 
importantly, why the American people should care about their 
success. Today is drinking out of a fire hose, trying to 
address the entire globe at one time. The rest of it I think is 
going to be more constructive. So I think the committee has 
attempted to try to increase the amount of open exposure with a 
degree of specificity that we haven't had in the past.
    With that, Senator Coats.
    Senator Coats. Thank you, Mr. Chairman.
    Director, I note here on the very first page of the 
statement for the record you say: ``The order of topics 
presented in this statement does not necessarily indicate the 
relative importance or magnitude of the threat in the view of 
the intelligence community.'' My question is, is this because 
we are dealing with such a complex and ever-expanding level of 
threats and it's difficult to prioritize, or is it because 
maybe we ought to be talking about this in Thursday's closed 
session? If that's the case, please tell me.
    But if you had to prioritize--you know, we have to make 
decisions here. We have limitations. You have budget 
limitations. We want to try to address all these threats 
equally, but that's not possible. So it seems to me that as a 
committee member and as a member of Congress we need to know 
how to best allocate our budgets toward what you need. I know 
that this can be ever-changing, but what's your response to 
that and how should we best address this?
    Director Clapper. Well, the more time I've spent doing 
this, I think the more loath I've become to try to rank-order 
threats, because any of them can leap up and bite us. So we 
don't have the luxury of--I don't like to mislead people that, 
well, this one threat is the one that we're going to focus on 
at the expense of others.
    So that's why the statement there. What does that mean from 
a resource standpoint in terms of what funding and resources 
we're given to do our job? I think the approach that we've 
taken, at least what I've tried to champion in the five and a 
half years I've been the DNI, is those resources that enable 
resilience and agility, so that we can respond and, hopefully, 
anticipate and then respond to a variety of threats.
    That's one thing--I said this before in answer to a 
question this morning. Again, in my time in the intelligence 
business I don't recall a time when we have been confronted 
with a more diverse array of threats, whether it's the nation-
state threat posed by Russia and China, and particularly their 
substantial nuclear capabilities, or non-nation-states of the 
likes of ISIL, Al-Qaeda, etc.
    So all these threats are serious, be it terrorism, be it 
weapons of mass destruction, or be it cyber. Others may have a 
view here. John.
    Director Brennan. As it was pointed out, we're facing this 
array of threats. The one area that I'm very concerned about is 
the increasing concerns about vulnerabilities in that digital 
domain and cyber. I do think we as a country need to make sure 
that we understand what those vulnerabilities are. Then, I 
think to Jim Comey's and others' points, making sure that we 
understand that the intelligence and security services and law 
enforcement services of this country have a role to help 
protect that environment, because our way of life, our future, 
really depends on making sure that that is strong. And we have 
adversaries overseas, both nation-states as well as sub-
national actors, that have the potential and the capability to 
carry out attacks.
    Director Clapper. The other part of this, if I may, just a 
thought that John keyed here, is the admixture, the combination 
of the threats posed to us in the cyber domain and the 
connection of that with terrorism. That makes ranking these 
discrete threats kind of difficult.
    Senator Coats. Maybe that's why you have cyber technology 
as number one. I just assume that, and I appreciate the 
response on that.
    Admiral Rogers, I'd like you to comment on that also, 
because this is your domain. Where do we stand on that?
    Admiral Rogers. For me, like my counterparts on the panel, 
I tell our team I am always leery about this hierarchical 
approach to doing business, because I've watched it encourage a 
workforce to think very linearly, so we focus on number one, 
then we think about number two, then we think about number 
three. And the world around us just doesn't work that way.
    For me, the way I try to bin it with our team is protection 
of U.S. persons and U.S. infrastructure is priority number one. 
And I look at this and I see cyber- and the counterterrorism 
world in particular bringing those together in a very 
concerning way, as you heard from Director Clapper in his 
opening statement, and cyber remains so foundational to every 
aspect of our daily lives, just in a way that we haven't 
necessarily seen as much in the past. It represents both great 
opportunity for us as a society, but great vulnerability, with 
the potential for great impact. That's what's of concern.
    Chairman Burr. Thank you, Senator Coats.
    Senator King.
    Senator King. To follow up that, on that point, I was a 
governor during September 11th, and shortly afterwards we 
tasked our state police to go to all of what we thought were 
the vulnerable pieces of infrastructure in our state, 
electrical, chemical plants, and those kind of things, and 
assess their level of vulnerability and to in effect red team 
them about how they could the attacked.
    Do we do that with our critical infrastructure? There's a 
lot of talk here about legislation, but it seems to me you 
could create a team to go to our power grid, to go to our water 
and gas utilities, financial services, and say: Look, this is 
what could happen to you; have you thought about this? You 
don't really need legislation to do this. In other words, more 
proactive, trying to alert them to the risks and to alert them 
to some of the protections that may be available.
    Admiral Rogers. Now you're really talking outside my lane 
as the Director of NSA and more in the lane of the Department 
of Homeland Security, so I will not speak for Secretary 
Johnson. I share your concern. It's one reason why, speaking 
within my lane within DOD, for example, we do just that. We 
aggressively attempt to make sure we understand our structures, 
their importance to our ability to execute their mission, our 
mission, and then their vulnerability.
    So we do penetration testing. We do red teams. We do no-
notice inspections, for example, as a way to make sure----
    Senator King. It seems to me we ought--and perhaps we ought 
to have Jeh Johnson here. But we need to be talking about being 
more active and not just wait and hope they are doing the 
proper defensive measures, but to alert them to where they're 
vulnerable and to help them figure out the defensive measures.
    Let me change the subject for a moment to heroin, which is 
an absolute epidemic. 10 or 12,000 people a year now dying. The 
number's accelerating just astoundingly and tragically.
    Director Clapper talked about Mexico and that's where it 
seems to be coming from. A specific question. One of the 
problems with heroin that we're now seeing is it's often laced 
with fentanyl, which makes it more potent and more dangerous. 
Where does that come from? Do we know? Do we have intelligence 
on where the fentanyl is coming from, where it's being 
manufactured, how it gets into this unfortunate stream? 
Director Comey.
    Director Comey. Senator, I know there's a lot of work being 
done on that. We have a pretty good sense that a fair amount of 
it is being manufactured in China, but it's also being 
manufactured in other places in the developing world. So I know 
DEA and FBI and the rest of the intelligence community is 
spending a lot of time trying to understand where those sources 
are.
    Senator King. Well, I think we should know that and it 
should be publicity and we should name and shame those 
companies--those countries, because this is entirely 
unacceptable. It's a trade in death. I would hope that there 
would be further analysis of that, and also analysis of the 
trade stream that allows it to get to Mexico or Central 
America.
    Second question: Do we have adequate resources in terms of 
intelligence, but also in terms of interdiction, in Mexico and 
Central America? My understanding is we have a pretty small 
number of people in some of those Central American countries 
which also are contributing to this. Do you feel as the 
intelligence community that you have adequate resources to this 
trade, where it comes from, who's behind it? Then of course 
that leads into interdiction. I'll follow up with that.
    Mr. Comey, your thoughts?
    Director Comey. Surely not, given the size of the tidal 
wave of heroin that's washing over from Mexico. And there's two 
waves. We talk a lot about the heroin wave, for good reason. 
There's another wave washing over the western United States 
that's methamphetamine from Mexico, and the two waves are 
actually now crashing together in the middle of the United 
States.
    So surely not is the honest answer. We have built, I think 
as Director Clapper said, much more effective relationships 
among ourselves in focusing on that problem and with our 
partners in Mexico and Central America. But honestly, it's not 
good enough, given the size of the threat.
    Senator King. Another question is, how's it getting in? Do 
we know how much by land and how much by water? My 
understanding is a great deal of this is coming by water and 
one of the problems is a lack of adequate interdiction 
resources, both in terms of the military and the Coast Guard.
    Director Comey. A large amount of it comes by water, and it 
tends to switch from both sides of the Central American land 
mass, Pacific or Atlantic side. But to pick up on what General 
Clapper said, what I've heard from the Coast Guard especially 
is they have a lack of resources to interdict.
    But also a lot of it comes by land, tunnels, smugglers, 
trucks. Because it's a tidal wave, it's washing in a lot of 
different ways.
    Senator King. A tidal wave of death is what we're talking 
about. I appreciate your efforts, but I think we have to 
realize that this is something that's really exploded almost 
literally in the last three or four years and we have to react 
to it proportionate to the threat to our people. This is 
killing people right now in the United States, in every state. 
It's not an abstract concern. It's not a possible virus. It's 
something that's happening right now.
    So I commend you for your efforts, but I hope that this is 
something where the community can work together to develop the 
information necessary, but then we can also--it's got to be all 
of government to react to take the information and act upon it.
    Thank you very much for your testimony.
    Thank you, Mr. Chairman.
    Chairman Burr. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Director Clapper, I suspect that this may be your last 
public global threat hearing before our committee. So let me 
join with our colleagues in thanking you for your decades of 
service. You and I first met in 2004 when Joe Lieberman and I 
wrote the law that created the DNI Office and I take special 
pride in the work that you're doing and want to thank you for 
all of your years of service.
    Director Clapper. Thank you very much, Senator Collins.
    Senator Collins. Let me follow up on the questions that my 
colleague from Maine just posed. Is there actionable 
intelligence that would allow us to disrupt and interdict more 
of the heroin and fentanyl-laced heroin that is coming in from 
Mexico than we are able to act on because of operational 
constraints?
    Director Clapper. Well, I just discussed this morning 
before the Senate Armed Services Committee the testimony that 
General Kelly, former, recently retired as the commander of 
Southern Command. I heard him say on more than one occasion 
that they had a lot of good intelligence on drug flow into the 
United States and he was limited because of his lack of 
operational resources to react.
    Now, that is getting better. Again, a plug for the Coast 
Guard: They do magnificent work. These new cutters that they're 
building and deploying are a fantastic capability, ideally 
suited for this interdiction mission, particularly with the 
seaborne and specifically the semi-submersible vehicles that 
the druggies are using to ship large quantities. When those are 
caught at sea, you take a lot of drugs off the street.
    Senator Collins. Thank you.
    Director Comey, you talked earlier about encryption and how 
difficult it is making the job of both law enforcement and our 
efforts to prevent and detect terrorist plots. In fact, you 
have been quoted as saying that encryption is at the center of 
the terrorist tradecraft. Yet the administration has not 
submitted to date any legislative proposal to deal with 
encryption.
    I would like to know whether you--and I'm going to ask 
General Clapper and Director Brennan the same question--have 
any of the three made recommendations to the President that he 
submit legislation dealing with the encryption problem to 
Congress for our consideration?
    Director Comey. I'll go first. Thank you, Senator. I would 
never--I don't think it would be appropriate for me to share 
recommendations that I might have made within the Executive 
Branch. But I will tell you this. Encryption is a problem in 
our investigations. It is also a great thing. And therein lies 
the challenge, which is why this is such a hard problem. That's 
why the administration and the private sector have been 
struggling so much.
    I am optimistic that we'll make progress through our 
conversations, but I don't know whether that'll get us far 
enough. So I can't quite clearly see what the future looks like 
from here, but I'm just not comfortable talking about the 
deliberations inside.
    Senator Collins. Well, let me change the question then. Do 
you believe that we should pass legislation that deals with 
encryption?
    Director Comey. I'm going to have to dodge that because 
that's not the FBI's job, to make recommendations. I do think 
that Congress and the American people have to grapple with 
this, because there's a collision between something that is 
great, encryption, and something that's also great, which is 
public safety.
    Senator Collins. General Clapper, you're retiring at the 
end of the year, so you don't have to be careful in answering 
this question in any way.
    Director Clapper. Well, I'm not sure we've exhausted all 
the possibilities here technologically. I'm not an IT expert by 
any means. I would hope that we have not yet exhausted what 
could be done voluntarily. As Director Comey indicated, 
encryption is a good thing for all kinds of reasons, for 
security and privacy and all that. But at the same time, it 
enables--it is enabling nefarious activity of all sorts, 
whether it's law enforcement or in the national security arena, 
to go on, and we're losing information because of it.
    So my hope is that the technological solution, we haven't 
fully explored the potential there.
    I'd also ask Admiral Rogers to comment as well.
    Admiral Rogers. Encryption is foundational to the future. 
Anyone who thinks we're just going to walk away from that I 
think is totally unrealistic. The challenge becomes to me, 
given that premise that encryption is foundational to the 
future, what's the best way for us to meet both of these 
imperatives, to ensure the privacy and the rights of our 
citizens and to ensure their protection and safety? Both are 
incredibly important to us as a Nation.
    The challenge that I've seen in the discussion to date is, 
from Mike Rogers' perspective, we're spending a lot of time 
talking about what we can't do, and I keep thinking to myself: 
We are the most innovative, technologically advanced Nation in 
the world; let's start thinking about what can we do. Let's 
start trying to figure out how are we going to make this work.
    Senator Collins. Thank you.
    Chairman Burr. Senator Hirono.
    Senator Hirono. Thank you, Mr. Chairman.
    Director Clapper, thank you very much for noting--well, 
first of all for your service, and to all of you on the panel. 
Thank you for noting that the drug threat is ever growing in 
our country and that, while interdiction and enforcement are 
very important challenges to us, I suspect that we are not 
putting very many resources into the prevention side of the 
drug equation. That's just a comment.
    Moving on, as North Korea continues its nuclear weapons and 
missile programs, do you assess that locating missile defense 
systems closer to North Korea or locating another carrier, say 
in Yokosuka, Japan, could provide greater deterrence against 
North Korean aggression? And I welcome comments also from 
Lieutenant General--General Stewart, and anyone else on the 
panel who'd like to comment.
    Director Clapper. Well, that's a policy call. But, having 
said that, I think it would. I think even the discussion about 
missile defense certainly gets the Chinese' attention. They 
would prefer that THAAD, for example, not be deployed. But the 
North Koreans are making it hard, I think, for the Chinese to 
sustain that position.
    So to the extent that there are force displays, force 
presence, missile defense, I think that could possibly have a 
deterrent effect on the North Koreans, but it could also incite 
them to do more.
    Senator Hirono. And with Kim Jong Un it's hard to tell 
which way he would go. That's just an editorial comment.
    In your statement of record you note that we will monitor 
compliance with China's September 2015 commitment to refrain 
from conducting or knowingly supporting cyber-enabled theft of 
intellectual property with the intent of providing competitive 
advantage to companies or commercial sectors. Private security 
experts have identified limited ongoing cyber activity from 
China, but have not verified state sponsorship or the use of 
exfiltrated data for commercial gain.
    So, Director Clapper and Admiral Rogers, I understand that 
there's much that we can't discuss in this open forum, but can 
you help me understand how the September 15th U.S.-China cyber 
agreement is helpful when we can't effectively monitor 
compliance?
    Director Clapper. Well, I think I'll ask Admiral Rogers to 
back me up here, but I think that there has been a decline, but 
I think we're going to have to have some more time to assess 
whether this is a case where these state sponsors, those 
elements, cyber actors, that are under the control of the 
state, have actually reduced their activity or they were told: 
Don't get caught. I think we're going to need some more time to 
assess that.
    Of course, there's also the challenge of determining 
whether, per the agreement, that any information that is 
purloined is actually used for economic advantage or not.
    Mike, do you want to add to that?
    Admiral Rogers. No, I would agree, and I don't think 
there's any doubt that we have been able to show in the past 
cases where that was the case. I think that's in part what led 
to the desire to be very direct with our Chinese counterparts 
to say this behavior is unacceptable and we have to work our 
way through this, because the status quo, the use of the powers 
of the state to generate economic advantage through cyber as a 
tool, is not acceptable to us. I think that's what drove the 
discussions in September and, as the DNI has said, our view to 
date is we have seen some lessening in activity, but we're not 
yet prepared to say that's as a result of a systematic policy 
choice on the part of our Chinese counterparts.
    Senator Hirono. Because it's so hard to determine 
attribution in the cyber threat arena, do you believe that 
we'll ever be able to resolve this dilemma? I'd ask you two 
gentlemen to respond.
    Then, General Stewart, would you care to comment on my 
first question regarding the assessment question that I had?
    General Stewart. I think North Korea has a number of 
objectives, one of which is demonstrating strength against the 
U.S. and its allies. The second objective is to deter U.S. 
actions if they take unilateral actions on the Korean 
Peninsula. And third among the objectives is to separate the 
U.S. from its South Korean ally.
    So the things that we can do that will show that we still 
have strength, that we will not be deterred, that we will not 
be separated from our ally, will be very beneficial. However, 
Kim Jong Un is unpredictable, and therefore I think we should 
do all those things to maintain our relationship, show 
strength, show that we cannot be deterred from taking action, 
but he is still an unpredictable wild card that none of us know 
how he will react.
    Senator Hirono. Some of our force structure decisions, 
though, would also have an impact on China, which is a more I 
think reasonable actor.
    I'm sorry, Mr. Chairman, but could the other two gentlemen 
answer briefly the question?
    Chairman Burr. They can, briefly.
    Admiral Rogers. You never have perfect knowledge. We 
historically have been able to put together a fairly good 
picture. I'm not going to argue that it's perfect. I'm the 
first to acknowledge it's getting harder, not easier, because 
we're watching opponents spending a lot of time trying to hurt 
or diminish our ability to attribute specific activity to 
specific actors.
    Senator Hirono. Did you want to add to that?
    Director Clapper. No.
    Senator Hirono. Thank you. It's going to be a challenge.
    Chairman Burr. The correct answer.
    [Laughter.]
    Senator Hirono. Thank you.
    Chairman Burr. Senator Warner.
    Senator Warner. Thank you, Mr. Chairman.
    Let me start with thanking again all of you for your 
service and, equally important, the literally thousands of men 
and women who work to keep our country safe. Let me say at the 
outset, as a Virginia Senator, the fact that we have the 
offices of ODNI, CIA, NRO, NGO, NGA, and a series of other 
entities, and, Director Comey, if GSA makes the right decision, 
maybe the FBI as well--and Senator Mikulski's not here--I hope 
you will relay that message that we give you the credit, and 
obviously the men and women, the professionals, don't get the 
credit that they appropriately deserve.
    Director Clapper, I'm going to--a couple questions for you. 
First of all, I want to commend you in terms of your testimony 
today, the fact that you've listed cyber and what I would call 
digital security first, and the recognition that, while we're 
talking somewhat about encryption today, and I'm going to come 
back to that in a moment, that we need forward-leaning thinking 
about the Internet of Things and artificial intelligence and 
virtual reality, and the fact of the matter that foreign data 
science is moving ahead very rapidly and tools and challenges 
around issues like encryption and going dark--this genie's out 
of the bottle.
    I particularly commend both Admiral Rogers and Director 
Comey's comments. People who want to relitigate the origination 
of encryption, that issue is behind us. I think it's 
appropriate to point out that when our national security is 
threatened also in terms of intellectual capital, personal 
information, other kinds of intrusions, encryption--and I 
particularly appreciate, Director Comey, your comments as 
well--is both an asset and potentially a liability.
    I fear that sometimes we have focused just on this piece 
rather than the whole encompassing issue around digital 
security. Admiral Rogers, again I want to give you kudos for 
this notion around innovation.
    Director Clapper, I guess what my concern is is that 
sometimes, with all of these competing interests, with national 
security interests, with intellectual capital security 
interests, with civil liberties security, with American 
business security, that I'm not sure all of these competing 
interests, while there have been efforts, have actually all 
come together in a thoughtful, reflective way to try to 
challenge folks around American innovation about how we get 
this back.
    I think there needs to be a real debate between all of 
these communities--the tech community, American business, 
information security specialists, law enforcement, intel, 
advocates for privacy and civil liberties. Director Clapper, 
I'd like to see, if we had such kind of a thoughtful approach 
would that be of value to this debate, which has already proved 
to be quite contentious?
    Director Clapper. It certainly would. I think--and I think 
you've named most of the key constituencies here. There are 
many countervailing interests. There is the pull of the needs 
for national security and law enforcement that you've heard. 
There are the privacy and civil liberties concerns and our own 
security.
    So there are a myriad or a welter of countervailing 
interests here that are at play. We certainly, we try to sort 
our way through all those competing equities. It's a very, very 
complex issue, as I think you've heard from the discussion 
that's transpired so far.
    Senator Warner. Well, I just would say that, as somebody 
who spent 20-plus years, 25-plus years, in the telecom 
industry, I don't think it is totally equivalent. And the 
notion of a kind of top-down solution, which might give us a 
static solution for a short period of time, but this is going 
to be a constantly evolving challenge and the response is going 
to need to be flexible and constantly transitioning.
    Again, as you lay out some of the challenges, we're talking 
about a piece here on encryption, but digital security is a 
much broader issue. I think you've appropriately laid out some 
of the buckets that have to be part of this, this conversation.
    My time is running out. I just want to add a subject that 
the Chair and the Vice Chair have been very helpful on as we 
think about on overhead, on our satellite issues. I recently 
was out at NGA, had a very good session there on commercial 
satellites. Right now the United States, not governmental, has 
about 50 commercial satellites. One company alone is going to 
go to 250 this year. I guess, Director Clapper--I know your 
background here--would you spend a moment in terms of how 
commercial is going to fit in with our overall overhead needs?
    Director Clapper. Well, I think commercial imagery, I have 
been a huge proponent of it since I served as the Director of 
NIMA-NGA right after 9-11 as a crucial part of our overall 
architecture. It's also important, though, I think, that these 
commercial entities remain commercially viable. If they have a 
product or service that we can use, we should take advantage of 
that from the standpoint of additional coverage, what is it we 
can unload from our NTM complex, which I think we'll always 
have a need for; and also importantly, for resiliency.
    But what I don't think is a good thing is if they become 
completely dependent on the government. So we have to find the 
balance there, and that's why I would like to make a change in 
the architectural responsibility so that that is accounted for 
in the totality of our overhead reconnaissance constellation.
    Senator Warner. Thank you.
    Chairman Burr. Thank you, Senator Warner.
    Senator Blunt.
    Senator Blunt. Thank you, Chairman.
    General Clapper, all of you who represent the IC community 
and the people you work with and the people that work for us, 
thank you for what you do.
    I'm going to mention a couple of questions I'm not going to 
ask, one for the record. But you just mentioned your leadership 
at NGA, the geospatial efforts we have. I've been spending a 
lot of time lately with Director Cardillo and in those 
discussions we've been talking a lot about sort of the 
workforce of the future. So one thing I'm going to ask in a 
question for all of you that we don't have time to ask today 
is: With engineering, with technology, with science, with math, 
are we doing the kinds of things we need to do and what can we 
do earlier to identify people we want to get on that track of 
being able to do these jobs in the IC community generally, 
Admiral Rogers, in your field specifically? Some information on 
that would be helpful.
    I'm also going to not ask a question--I will ask that 
question for the record.
    With regard to science, technology, engineering, and 
mathematics (STEM) disciplines, what are we doing to identify 
and nurture STEM talent earlier and attract those people to the 
IC in general, and to the NSA in particular?
    I won't ask today about Robert Levinson. I think that's 
probably more appropriately asked in a closed setting, and I'll 
be doing that later. But in that regard, I am concerned that 
the transfer of money occurred when it did. A supposed $400 
million from a past military sale that we had had happened to 
be given back just coincidentally the same time that those 
three hostages, as I see them, were released.
    Now, this is money, by the way, that the Congress in 2000 
said had to go to victims of Iranian-backed terror and it all 
did. So this is clearly giving the money away twice, sort of 
like the meeting of the church business meeting where they say: 
We've got a real problem. We've got a $1,000 deficit. What 
should we do? And somebody says: Well, let's give half of it to 
the PTA and half of it to the Girl Scouts.
    This money was gone, but it was an excuse, a coincidental 
excuse I think, to do the right thing in the wrong way.
    But what I want to ask you is, you said, Secretary Kerry 
said, just in the last few days that undoubtedly some of the 
money returned to Iran would go to terrorist groups. You 
verified again today that you see no real change in behavior in 
this number one sponsor, state sponsor of terror in the world. 
Are we doing any analysis? And anybody that wants to answer 
this can. What do we think happens when suddenly Iran gets $100 
million, $100 billion, or maybe they get half of that? Maybe 
they get $50 billion. What do we think happens in places where 
not very much money can drive a lot of bad activity? $400 
million in Yemen can make lots of bad things happen.
    Are we evaluating what happens when Hezbollah, when the 
Taliban, when the Houthi get this new infusion of money that I 
think everybody understands they are about to get?
    Director Clapper. Well, Senator Blunt, I'm a little 
constrained here in what can be said about this publicly. But 
we are watching to the best of our ability the insight we have 
on actually where this money is going. Most of it so far has 
been taken up with what I would call encumbrances, in other 
words do-outs, loans, and other needs that Iran has. Those fall 
mainly in the economic arena. They need to recapitalize their 
whole oil infrastructure, which has deteriorated, if they're 
going to do something with that. They have a lot of obligations 
in debts that they need to pay.
    So the actual--we can go into this in more detail in a 
classified setting, but what has actually flowed to the Quds 
Force, let's say, has not been very much. And bear in mind that 
even during the period of heavy sanctions the Quds Force, the 
IRGC, the Republican Guards, and the Quds Force specifically, 
were--they were funded and the Iranians found a way to sustain 
them. And of course, they themselves have business interests by 
which they generate their own income.
    Senator Blunt. I think that last point is the best point. 
Even when Iran didn't have whatever amount of this money they 
get--say they get a tenth of the purported $100 billion. Even 
when they didn't have money, they were able to fund terrorism. 
I think whatever percentage of that money comes back to them, 
the argument we sometimes hear that, well, they'll build 
schools and hospitals and pay debts--they could have done all 
those things before they got this money as well, and they still 
found money to finance terror efforts all over the neighborhood 
that they're in and outside that neighborhood.
    Thank you, Mr. Chairman.
    Chairman Burr. Thank you, Senator Blunt.
    Senator Cotton.
    Senator Cotton. Thank you, gentlemen, for appearing here. 
We frequently get to talk in private, not often in public. So 
let me associate myself with the comments of so many other 
members of this committee in thanking you, not only for your 
service--Director Clapper in particular for your many years of 
long service--for the service of the men and women that you 
represent.
    Director Brennan, you stated earlier, in response to 
Senator Heinrich, we have not seen as much violence, 
instability, and interstate conflict in the Middle East in, I 
believe the time period was, your lifetime?
    Director Brennan. I think I said 50 years, which is less 
than my lifetime.
    Senator Cotton. Why do you think that is? What are the key 
drivers that's causing all that?
    Director Brennan. Well, I think it's been five years now 
since the Arab Spring started to take root, which had a very 
traumatic impact on governments throughout the region, and the 
street became alive. And Al-Qaeda and terrorist organizations 
did not trigger that, but they have taken full advantage of it. 
So the instability that we see in Libya and Yemen and Syria 
certainly was an outgrowth of the Arab Spring and the turnover 
in governments in Libya and Yemen.
    So this is pitting individuals from different areas of the 
country, of ethnic backgrounds that might be different than the 
government's. There are sectarian tensions that are playing 
out. All these things that were repressed because of the 
authoritarian governments that were in power for many years, 
and once their control was shaken I think it then loosed this 
popular reaction that now is finding expression in basically 
civil war, sectarian conflict, and challenges against the 
government.
    A lot of these governments do not have the political 
institutions, nor the ability to address the many, many 
challenges, political, economic, and social in the region.
    Finally, as you well know, a lot of these countries were 
carved out of previous colonial realms and therefore were 
almost patchworks of people of various backgrounds, that now 
are finding ways to fight among themselves.
    Senator Cotton. Thank you.
    Director Comey, I want to address electronic communication 
transaction records. I've introduced legislation to rectify a 
problem commonly known as the ``ECTR fix.'' The legislation 
would clarify the government can obtain specified sets of 
electronic communication transaction records and fix an 
oversight made in an earlier law. What's your position and what 
is the position of the FBI on the need for this fix?
    Director Comey. We need it very much, and it's actually 
quite an ordinary fix. It's necessary because of what I believe 
is a typo in the 1993 statute that has led to some companies 
interpreting it in a way I don't believe Congress ever 
intended. So it is ordinary, but it affects our work in a very, 
very big and practical way.
    Senator Cotton. Would you characterize that as a top 
legislative priority for the FBI?
    Director Comey. Yes.
    Senator Cotton. Thank you.
    General Stewart, I want to turn to North Korea's recent 
nuclear test. The Comprehensive Test Ban Treaty Organization 
has not reported any collection of xenon or other nuclear 
particulates. Are you aware of any nuclear particulates 
collected from the test?
    General Stewart. Thank you for letting me participate.
    [Laughter.]
    I have 10 questions I'd like to answer and that's not one 
of them. But I appreciate the opportunity.
    We have not at this point detected any particulates that 
would characterize this device.
    Senator Cotton. What does that tell us then about North 
Korean containment vessels and technology?
    General Stewart. Very robust capability to deceive, 
contain, hide their full capability and capacity. And I'd like 
to talk about this some more in closed hearing about both our 
capability and what we're seeing that they're doing.
    Senator Cotton. Thank you. I believe we'll have a chance to 
do that soon.
    Director Brennan, I want to return in closing here to your 
exchange with Senator Wyden. You mentioned the removal of a CIA 
document from the shared space in violation of a memorandum of 
understanding with this committee. Has any of this committee or 
staffer ever apologized to you for the removal of that 
document?
    Director Brennan. No, Senator.
    Senator Cotton. Do you believe that that was a violation of 
the MOU that the agency and this committee had?
    Director Brennan. I believe it was inconsistent with the 
understanding that we had, the common understanding, yes.
    Senator Cotton. Has that document been returned to you?
    Director Brennan. I will have to check on that, Senator.
    Senator Cotton. Handling of classified information is a 
very serious matter, right?
    Director Brennan. Yes.
    Senator Cotton. Thank you.
    Chairman Burr. I thank all Senators. We're going to have a 
second round. It's going to start in the same order as the 
first one. The second round will consist of one question or two 
minutes, whichever happens fastest. And it's my intent that we 
will be out of here shortly. Again, I thank our witnesses.
    General Stewart, you were recognized too soon, because I 
have a question for you. I'm not sure it's in the 10 questions 
that you would like to answer. Assessing where we are today in 
Iraq: Share with me what Iraq looks like at the end of this 
year as it relates to being different, if at all?
    General Stewart. The Kurds in northern Iraq solidify their 
positions. They probably won't move any further south because 
it's not in their interest to move south. The Shia militia 
retains control over the central part of Iraq, moving out west 
just a bit. We consolidate our gains in Ramadi. The Sunni 
forces and Iraqi forces consolidate their gains in Ramadi, 
begin to move in to secure the corridors moving from Hit up to 
Haditha, possibly isolating, beginning the isolation effort 
around Mosul. But in the western part of Iraq I'm not 
optimistic that we will have done much to move ISIL forces out 
of that region.
    Chairman Burr. And doubtful that Mosul will change hands in 
this calendar year?
    General Stewart. I am not betting on that, Senator.
    Chairman Burr. Thank you, General.
    General Stewart. I think it'll be very difficult to both 
isolate and conduct a clearing operation that would look like 
the securing of Mosul this year.
    Chairman Burr. Thank you, General Stewart.
    Vice Chairman.
    Vice Chairman Feinstein. Director Comey, I want to thank 
you. You really are a man of principle and you stand up for 
what you believe, and it's very much appreciated.
    Last year, I think some of us received a report from the 
FBI in March of 2015 that showed that individuals on the FBI 
terrorist watch list attempted over a 10-year period to buy a 
gun or explosive over 2,000 times and they were successful 91 
percent of the time. Could you describe the standard used by 
the FBI to make sure that only individuals who pose a threat to 
national security are placed on the FBI's terrorist screening 
database?
    Director Comey. Thank you, Senator. I'll try and do it 
briefly. There's an extensive process to vet the information 
around an individual to see if they meet our threshold, which I 
think is reason to believe--reasonable basis to believe they're 
involved in terrorist activity, to then put them on the watch 
list.
    Vice Chairman Feinstein. Can you describe here the 
safeguards to ensure that the FBI minimizes false positives? 
That means making sure that innocent Americans aren't placed on 
the terrorist screening database?
    Director Comey. Probably in two directions. One from our 
own direction is a constant effort to make sure our records are 
accurate, because false positives simply waste our resources. 
Then from the other direction, in the last year the Department 
of Justice has driven the creation of a redress procedure. So 
if anyone thinks they were wrongly placed on the list, there's 
a process through which they can challenge that.
    Vice Chairman Feinstein. Thank you.
    Mr. Brennan, I want to go back to Afghanistan for a minute. 
Talk a little bit about Al-Qaeda's presence in the country and 
whether it's increasing or not, and ISIL's influence in the 
country. And how probable is the emergence of an ISIL 
stronghold in Afghanistan?
    Director Brennan. Al-Qaeda, there's probably about maybe 
100 or so, somewhere in that area, of Al-Qaeda members in the 
eastern part of Afghanistan. The leader there is an individual 
by the name of Farouq Al-Qatari, and they have married up, as I 
said, with some of the other militant organizations in the 
area, including the Taliban. So they continue to ply their 
trade on the ground inside of Afghanistan.
    But we're concerned they can regenerate in that Afghan-Pak 
border region, which is why we need to maintain the 
intelligence collection, as well as working with our Afghan and 
Pak partners.
    ISIL has been able to take advantage of some elements 
within the Taliban that have been disenchanted with the 
organization. So ISIL is seen as a threat, certainly by Afghan 
officials. When I traveled over to Afghanistan just two months 
ago, it was one of the real concerns they had that ISIL is 
planting the flag in different parts of Afghanistan and they 
are now seen as a competer, a competitor, to some of the 
existing militant and terrorist organizations there.
    Vice Chairman Feinstein. Stop there. How do you assess 
that?
    Director Brennan. We assess it based on our----
    Vice Chairman Feinstein. No, no, not the methodology. But 
in the vernacular, how big a deal is that?
    Director Brennan. It's a concern. ISIL probably has several 
hundred members or so inside of Afghanistan, I would estimate. 
And it is distributed. They have had some setbacks there as 
they have gone up against some of the other militant 
organizations. But it is a concern. Just like we see these 
various franchises growing in places like Indonesia or Nigeria, 
Somalia, Yemen, Libya, we see the same thing in South Asia.
    Vice Chairman Feinstein. Some time ago we did a four-
corners intelligence trip that went to Afghanistan and I had 
the privilege of spending some time with women 
parliamentarians. I was amazed at their strength and the fact 
that they were going to survive and the Taliban was not going 
to come back.
    Now, as I watch the developments happening there, the worry 
goes up and up and up, and you see these terrible things being 
done to women again, and also school children who happen to be 
girls.
    I wonder whether we can make sufficient progress in the 
next decade or so. Do you have any assessment on that?
    Director Brennan. As you point out, I think the Afghan 
people are a very resilient people. There have been thousands 
of Afghans who have given their lives for the future of that 
country. That's why we want to continue to work very closely 
with them, their intelligence, security, military organizations 
that are there. They face a host of challenges. Foreign 
assistance is critically important both on the military front 
as well as on the economic side.
    But President Ghani and CEO Abdullah Abdullah, they need to 
make sure that their government is able to address the concerns 
of the Afghan people across the broad range of areas. But as 
you point out, the Afghan people are some of the bravest people 
that we have----
    Chairman Burr. As the Vice Chair has worked five questions 
into the one-question round, I don't question the strength of 
women. I can assure you of that.
    Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman. I will not incur 
the wrath of the Chairman. I will stick to one.
    Director Clapper, I wanted to ask you a question about 
encryption. I'm not sure you're familiar with the report. Maybe 
already got it. It's brand new, written by an independent 
group. It's on encryption and the title of it is ``Don't 
Panic.'' Matt Olsen, who we all have enormous respect for, was 
very involved, the former Director of the National 
Counterterrorism Center.
    I'm struck by this because I think when you get into the 
nuts and bolts of it, obviously encryption is available all 
around the world, often very cheaply. The basic thesis in this 
report is that, with wireless connectivity and sensors and the 
like, there are going to be more opportunities to prevent our 
country from going dark.
    My question to you would be: Because of Matt Olsen's 
involvement and the experts involved in this, I would like to 
have your team take a look at this report and give us an 
analysis within an agreed-upon time, maybe 60 days. I would 
ideally like an unclassified version. Maybe if it has a 
classified annex that would be fine. Would that be something 
you could agree today? I think this is really a breakthrough 
report in my view, given the cross section of experts involved. 
Is that something that you could do for us?
    Director Clapper. Sure, we'll do that.
    Senator Wyden. Great. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Burr. Senator King.
    Senator King. Thank you. I have one quick comment and one 
question.
    Director Clapper, there's been a lot of praise heaped upon 
you today. I'd like to join in that. In my study of American 
history, the more I read the more I appreciate Washington, not 
for necessarily the war and the presiding over the 
Constitutional Convention, but his role as the first President, 
establishing precedents and sort of how this whole enterprise 
would function.
    I realize you're not the first Director of National 
Intelligence, but I think by your tenure and your character and 
your intelligence and your experience you have served a similar 
function in really establishing how this entity should operate 
and will operate in the future. For that I want to profoundly 
compliment and thank you. I think you've helped to create an 
institution that will serve this country well for some period 
of time. That's my comment.
    My question is a very broad one and I don't think it's one 
that we can answer here today. You comment in your report that 
Sunni violent extremism has been on an upward trajectory since 
the seventies. More groups have more safe havens than in any 
other time in history. We've killed 20,000 members of ISIS and 
yet we now know that more than 36,000 foreign fighters have 
gone to join ISIS.
    The point is we're dealing with a hydra here, where we cut 
off one head and two grow back. I wonder if it isn't time to 
stop and say, do we need a new strategy other than trying to 
just kill our enemies as they arise? I'm thinking of George 
Kennan and the strategy of containment, not saying that that's 
the right strategy, but that there was a sort of comprehensive 
strategy rather than an ad hoc dealing with each individual 
attack or crisis.
    I would just suggest that it seems to me this would be a 
role maybe at the end of this administration or the beginning 
of the next administration, to think about how do we deal with 
Sunni extremism and how do we develop a strategy that involves 
other countries, particularly Sunni countries, that can try to 
get at the roots of this instead of just the tactics.
    Your thoughts?
    Director Clapper. Senator King, I think you've hit on a 
very important, very crucial point. By the time you get into 
our business, where we're trying to track down terrorists who 
are bent on doing harm to us, it's way late. What really needs 
to be focused on are what are the fundamental systemic 
conditions that give rise to this?
    You can kind of rattle off: large ungoverned spaces, a 
place awash in weapons, the population bulge of young, 
unemployed and frustrated males to whom such propaganda 
appeals. What has to be gotten at fundamentally while we're 
doing our thing of collecting intelligence and taking people 
off the battlefield is what are the root causes that give rise 
to this phenomenon of extreme jihadism.
    Senator King. Thank you. I hope this discussion can 
continue.
    Thank you, Mr. Chairman.
    Chairman Burr. Thank you, Senator King.
    Senator Cotton.
    Senator Cotton. Is it one question or two minutes, 
whichever is longer?
    Chairman Burr. Whichever comes first.
    Senator Cotton. Can I take the Vice Chair?
    Vice Chairman Feinstein. Oh, you get no sympathy from me.
    Senator Cotton. I had a long series of adversarial, 
prosecutorial questions for each of you that I now can't ask 
since I'll be stopped after the first one.
    Admiral Rogers, I will address briefly Section 702 of FISA, 
which expires, if I'm not mistaken, at the end of next year. 
Section 702 authorizes the government to target non-U.S. 
persons reasonably believed to be outside the U.S. for purposes 
of acquiring foreign intelligence information. I believe that 
Section 702 is a vital national security tool. It's 
constitutional. It has multiple layers of oversight.
    In 2012 DNI Clapper wrote to Congress requesting a straight 
reauthorization of Title 7, which would include 702. Do you 
believe that Congress should pass a straight reauthorization of 
Section 702?
    Admiral Rogers. I do believe we need to continue 702.
    Senator Cotton. Thank you. I converted a long series of 
adversarial questions into a speech and then asked if you 
agreed with my speech.
    Chairman Burr. I will follow up the line of questioning 
just to say this, that the committee will take up 702 very 
quickly, not from the standpoint of the legislation, but from 
the standpoint of the preparation that we need to do in 
educating and having Admiral Rogers and others bring us up to 
speed on the usefulness and any tweaks that might have to be 
made. But I daresay this is something that I think Director 
Clapper has said before. We cannot do without this. This is 
absolutely crucial. It's been at the centerpiece of a lot of 
things.
    If I could before we end go back to encryption since it was 
brought up. I've had more district attorneys come to me about 
the encryption issue than I have the individuals at this table. 
The district attorneys have come to me because they're 
beginning to get to a situation where they can't prosecute 
cases. This is town by town, city by city, county by county, 
and state by state. It ranges from Cy Vance in New York to a 
rural town of 2,000 in North Carolina.
    It's something we need to take seriously. One of the 
responsibilities of this committee is to make sure those of you 
at the table and those that complete the complement of our 
intelligence community have the tools through how we authorize 
that you need. The traditional tools I see as no different than 
I look at encryption and say we need to provide a tool for you 
to have the access to that information when the courts give you 
permission to do it.
    I could care less how that's accomplished. It is I think 
the priority--and I think I can speak for the Vice Chairman. It 
is the priority of both of us that this be voluntary. But if in 
fact it's not something we can achieve the balance on 
voluntarily, then I feel like it's the committee's 
responsibility to pursue it in any fashion we can, and I intend 
personally--I won't commit the committee to do it--to pursue 
that, because I think it is invaluable in the future.
    I fear that this is not the toughest decision we're going 
to make, based upon how technology might impact the world we're 
in.
    The American people expect us, Director Comey, to this year 
exceed 72 individuals that you incarcerate before they commit a 
lone wolf event. You're on track to probably do that, based 
upon the beginning of this year and based upon intent. I'm not 
sure that we can turn around and say, well, we only got 11 of 
them because we couldn't see inside the communications of the 
other 60-some and, America, you're out of luck. You won't stand 
for it, I won't stand for it, the American people won't stand 
for it.
    So I hope--we're working with the administration and 
hopefully we can all work towards the same end goal.
    I want to take one last opportunity to thank each of you, 
but, more importantly, the folks that work for you and work for 
the American people. At any given point in time, everybody at 
the table's workforce has been challenged to work 24-7 to 
address events that happened over the worst times, I might say. 
Over the holidays as we went through Christmas, I can't imagine 
what the Bureau was doing. I can't imagine, Admiral Rogers, 
what you were going through. John, I can't imagine what the CIA 
was going through, trying to track down the number of threat 
streams that were out there, and that culminates with Director 
Clapper. So I don't think anybody had a real comfortable 
holiday season this year. But the fact is we got through it 
without an event, and I don't think many of us would have bet 
that that would have been the outcome, but we did. And now 
we're focused on tomorrow, not yesterday.
    My hope is that we will continue to do it and to do it 
successfully. With that, I will tell you how much we look 
forward to seeing all of you again on Thursday, and this 
hearing's adjourned.
    [Whereupon, at 4:28 p.m., the hearing was adjourned.]
  

                         [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
